 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2011 AND 2010
      Federal Aviation Administration

       Report Number: QC-2012-008
      Date Issued: November 14, 2011
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                   Date:    November 14, 2011
           Audited Financial Statements for Fiscal Years
           2011 and 2010, Federal Aviation Administration
           Report Number: QC-2012-008

  From:    Calvin L. Scovel III                                  Reply to
                                                                 Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           I respectfully submit our report on the quality control review (QCR) of the Federal
           Aviation Administration’s (FAA) audited financial statements for fiscal
           years 2011 and 2010.

           The audit of FAA’s financial statements as of and for the years ended
           September 30, 2011, and September 30, 2010, was completed by Clifton
           Gunderson, LLP under contract to the Office of Inspector General (attached). The
           contract required the audit be performed in accordance with generally accepted
           Government auditing standards and Office of Management and Budget Bulletin
           07-04, “Audit Requirements for Federal Financial Statements,” as amended.

           Clifton Gunderson, LLP concluded that the financial statements present fairly, in
           all material respects, FAA’s assets, liabilities, and net position as of
           September 30, 2011, and September 30, 2010, and net costs, changes in net
           position, and budgetary resources for the years then ended, in conformity with
           U.S. generally accepted accounting principles. The report did not include any
           reportable internal control deficiencies or instances of reportable noncompliance
           with laws and regulations tested.

           We performed a QCR of Clifton Gunderson, LLP’s report and related
           documentation. Our QCR, as differentiated from an audit performed in accordance
           with generally accepted Government auditing standards, was not intended for us to
           express, and we do not express, an opinion on FAA’s financial statements or
           conclusions about the effectiveness of internal controls or compliance with laws
                                                                               2


and regulations. Clifton Gunderson, LLP is responsible for its report dated
November 9, 2011, and the conclusions expressed in that report. However, our
QCR disclosed no instances in which Clifton Gunderson, LLP did not comply, in
all material respects, with generally accepted Government auditing standards. A
response to this report is not required since Clifton Gunderson, LLP did not make
any recommendations.

We appreciate the cooperation and assistance of FAA representatives, the Office
of Financial Management, and Clifton Gunderson, LLP. If we can answer any
questions, please call me at x61959, or Lou Dixon, Principal Assistant Inspector
General for Auditing and Evaluation, at x61427.


Attachment

                                        #
